OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HONDURAS’
EDUCATION ACTIVITIES
AUDIT REPORT NO. 1-522-10-007-P
JULY 13, 2010




SAN SALVADOR, EL SALVADOR
    Office of Inspector General


    July 13, 2010

    MEMORANDUM

    TO:              USAID/Honduras Mission Director, William R. Brands

    FROM:            Acting Regional Inspector General/San Salvador, Jon Chasson /s/

    SUBJECT:         Audit of USAID/Honduras’ Education Activities (Audit Report No.
                     1-522-10-007-P)

    This memorandum transmits our final report on the subject audit. We have considered
    your comments on the draft report in finalizing the audit report and have included your
    response in appendix II.

    The report contains three recommendations intended to improve the effectiveness of
    USAID/Honduras’ Education Activities. Management decisions have been reached for
    all three recommendations. M/CFO/APC will record final action on these
    recommendations when planned actions have been completed.

    I want to express my appreciation for the cooperation and courtesy extended to my staff
    during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
 San Salvador, El Salvador
 Tel. (503) 2501-2999—Fax (503) 2228-5459
 www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................... 1

Audit Findings ............................................................................................................. 3

USAID/Honduras Should Monitor
the Distribution and Use of Materials ............................................................................ 3

USAID/Honduras Should Improve Reporting on Educational Activities........................ 5

Other Matter .................................................................................................................. 6

Evaluation of Management Comments ..................................................................... 7

Appendix I – Scope and Methodology ...................................................................... 8

Appendix II – Management Comments ................................................................... 10
SUMMARY OF RESULTS
In 2002, Honduras joined the Education for All Fast Track Initiative (EFA-FTI), a
multidonor effort to improve education quality and achieve universal access to preschool
and a 100 percent primary school completion rate. Since then, access has improved,
but the quality of basic education in Honduras remains low relative to international
standards. According to USAID data, while 88 percent of Hondurans completed grade
six in 2008, less than 45 percent completed ninth grade. In addition, less than 50
percent of Honduran students were reading and writing at grade level. The ultimate
impact of these statistics is a weak emerging workforce poorly prepared to compete in
the global economy and a citizenry ill prepared to participate effectively in strengthening
democratic institutions.

To help improve the quality of education, USAID/Honduras established the Mejorando el
Impacto al Desempeño Estudiantil de Honduras 1 (MIDEH) program in 2004. Under this
program, the mission first awarded a 6-year, $20 million cooperative agreement to the
Academy for Educational Development (AED), and in 2007 awarded a $5 million, 3-year
cooperative agreement to the American Institute for Research (AIR).

The MIDEH program was designed to implement an integrated set of testing, research,
support, and capacity-building activities to address major components of the
Government of Honduras’ education program. While AIR takes the lead on the
development and testing of educational materials, AED provides educational support
and capacity-building activities. As of September 30, 2009, MIDEH’s total obligations
and expenditures came to $22 million and $21 million for AED and AIR, respectively.

As part of the fiscal year (FY) 2010 audit plan, the Regional Inspector General/San
Salvador audited USAID/Honduras’ education activities to answer the following
questions:

         Are USAID/Honduras’ education activities achieving their main goals?

         Did USAID/Honduras’ reporting on its education activities provide stakeholders
          with complete and accurate information on the progress of the activities and the
          results achieved?

The audit found that during FYs 2008 and 2009, the MIDEH activities had limited
success achieving their main goals. Although AIR developed educational materials that
were shown to improve classroom performance and AED was able to provide effective
capacity-building activities, problems with the distribution and use of educational
materials limited the program’s overall impact. For example, based on AIR’s evaluation
of availability and use of materials (validation study) for seventh through ninth grades,
only 31 percent of schools had received monthly tests, and only 9 percent of teachers
reported “always” using the tests during 2008. However, USAID/Honduras does not
systematically collect, track, or report data on aspects of MIDEH implementation status such
as availability of materials and the number of teachers who actually use the revised
materials.

1
    Improving the Impact of Student Performance in Honduras.


                                                                                      1
Furthermore, although USAID/Honduras provided generally accurate information related
to standard indicators in its performance plan and report for FY 2009, the data,
combined with the mission’s narrative, did not provide a complete description of program
status. For example, the mission reports that because the revised academic materials
supported by USAID were adopted nationwide, all 1.38 million students in Honduras
benefited from U.S. Government support. However, according to information available
at USAID/Honduras, not all the students received the same level of U.S. Government
support. For example, not all students received new education materials or had
teachers who regularly used the revised teaching materials.

The audit team recommends that USAID/Honduras (1) develop, in conjunction with the
Government of Honduras and other donors, a coordinating body to plan the annual
distribution of USAID-funded educational materials; (2) develop performance
management plans that contain data on the implementation status of the education
program, such as availability of newly developed materials and use of materials in the
classroom; and (3) adjust performance plan and reports to include written explanations
or qualifications that more appropriately define the reported U.S. Government support.

The audit team noted another matter of importance to the program: the need for
continued coordination by USAID/Honduras with other donors to ensure a full 200-day
school year. Unless students receive adequate time to work with the revised
educational materials, the MIDEH program is unlikely to fully achieve its desired results.

Detailed findings appear in the following section. The audit’s scope and methodology are
described in appendix I.

USAID/Honduras agreed to implement and has developed specific plans to address all
three recommendations. This audit determined that management decisions have been
reached on the three recommendations; an evaluation of management comments is
provided in the Evaluation of Management Comments section of this report. The audit’s
scope and methodology are described in appendix I, and USAID/Honduras’ comments in
their entirety are included in appendix II.




                                                                                        2
AUDIT FINDINGS
During fiscal years (FYs) 2008 and 2009, the Mejorando el Impacto al Desempeño
Estudiantil de Honduras (MIDEH) activities had limited success achieving their main
goals.

Throughout FYs 2008 and 2009, the American Institute for Research (AIR) developed
numerous education materials—such as performance standards, monthly pacing guides,
monthly formative test booklets, diagnostics tests, and annual summative tests—that
were shown to improve classroom performance. AIR also developed a cost-effective
program for testing end-of-year achievement. However, during this period, the
Honduran Ministry of Education’s delayed and limited distribution of the program
educational materials hampered implementation of the revised academic curriculum for
first through sixth grades and seventh through ninth grades. The problems with
distribution of educational materials also limited the effectiveness of the Academy for
Educational Development’s (AED) teacher training efforts regarding the proper use of
curriculum standards, monthly formative tests, and other products developed by AIR.

During the same period, AED was able to provide effective technical assistance to
school administrators at the departmental and district level in preparing strategic and
operational plans. In addition, AED also worked to encourage parents and parental
organizations to participate in education. A coup d’état in June 2009, however, derailed
AIR’s efforts to validate revised teaching materials and initiate testing the 10th and 11th
grades, eliminated a full testing cycle for lower grades, and stymied AIR’s efforts to
advance the concept of an independent testing institute. The coup also disrupted AED’s
technical assistance efforts.

Although USAID/Honduras provided generally accurate information related to standard
indicators in its performance plan and report for FY 2009, the data, combined with the
mission’s narrative information, did not provide a complete description of program status.

USAID/Honduras Should Monitor
the Distribution and Use of Materials
According to AIR’s agreement with USAID/Honduras, AIR would develop education
materials linked to the new Honduran curricula and standards. AIR recognized that the
teachers and students would have to receive the materials and use them for these new
materials to have a strong impact. AIR’s technical proposal to USAID/Honduras stated:

       Since actual implementation of standards, pacing guides, textbooks,
       monthly tests, and other materials, together with appropriate
       modifications in methodological approach to the teaching of Mathematics
       and Spanish Language, are keys to reaching EFA-FTI goals we have to
       find a way of ensuring that schools are in possession of such materials.

Furthermore, USAID policy requires USAID missions to monitor program implementation
status. According to the USAID Automated Directives System (ADS) chapter 201, the




                                                                                     3
Results Framework should allow managers to gauge progress toward the achievement of
results and to make appropriate adjustments to relevant activities.

While the MIDEH program has developed an integrated package of training materials
that were shown to improve classroom performance, the materials have not always been
reproduced in sufficient quantity and delivered on time to the schools. According to
discussions with USAID/Honduras, officials from implementing partners, and a former
official of the Ministry of Education, materials such as pacing guides, monthly test
booklets, and year-end summary tests have rarely arrived on time or in sufficient
quantities. In one case, the monthly tests for 2008 did not arrive at any of the schools
until the end of that year for first through sixth grades. Because these tests are meant to
be given at the end of each month for evaluation purposes, they could not be used that
year. According to officials from the subcontractors that train teachers, the delay in
receiving education materials is one reason that teachers do not use the new materials:
the teachers are not confident the materials will arrive on time the following year.

This lack of availability undercuts efforts to integrate the new curriculum into the school
system. For example, based on AIR’s evaluation (validation study) of availability and
use of materials for seventh though ninth grades only 31 percent of schools had
received monthly tests and only 9 percent of teachers reported “always” using them
during 2008. However, the mission does not systematically collect, track, or report data on
aspects of MIDEH implementation status such as availability of materials and use of
materials.

Although much of the responsibility for distribution of materials rests with the Ministry of
Education, USAID’s plans to support these efforts were not implemented. USAID
recognized that distribution of materials was a key component of the MIDEH program,
and included distribution as a project task for AIR; however, the mission did not follow up
to see that AIR completed the task. Furthermore, the mission did not establish
procedures to collect information about the status of material distribution. Mission
officials stated that information about the use of materials in schools was expected to
come from evaluations or validation studies and from direct observations during AED-
sponsored training at the schools. However, no validation studies were completed in
2009, and USAID/Honduras did not ensure that trainers systematically collected and
reported data on material availability and use.

Although materials and training can improve school performance, if schools do not receive
the materials on time or in sufficient quantity, the materials’ overall impact will be limited.
Without the reliable distribution of materials, teachers may remain skeptical of the value
of the overall reform effort. While the distribution is not solely the responsibility of
USAID, it is critical to achieving the impact desired. Furthermore, without effective
assessment procedures, the mission cannot determine and accurately report on the
status and impact of the program. To address these issues, this audit makes the
following recommendations:

   Recommendation 1:        We recommend that USAID/Honduras develop, in
   conjunction with the Government of Honduras and other donors, a coordinating
   body to plan the annual distribution of USAID-funded educational materials.




                                                                                             4
   Recommendation 2:           We recommend that USAID/Honduras develop
   performance management plans that contain data on the implementation status
   of the education program, such as availability of newly developed materials and
   use of materials in the classroom.

USAID/Honduras Should Improve
Reporting on Education Activities
According to USAID’s guidance for the FY 2009 Performance Plan and Report (PPR),
missions were required to provide information about the mission’s performance against
targets for standard indicators, as well as a narrative description of the program status.
The guidance requires the narrative to be frank and objective regarding the results in
each program area. In its FY 2009 PPR, the mission communicated its achievements
on the indicators shown in the table.

         USAID/Honduras FY 2009 Performance Plan and Report Indicators

                                                                         Target       Actual
                    Program Element Indicator                                        Reported

  Number of administrators and officials trained                           2,000       977
  Number of learners enrolled in U.S. Government (USG)-supported          19,000      67,998
  preprimary schools or equivalent nonschool-based settings
  Number of learners enrolled in USG-supported primary schools or        1,350,000   1,384,386
  equivalent nonschool-based settings
  Number of learners enrolled in USG-supported secondary schools or      435,000      429,571
  equivalent nonschool-based settings
  Number of teachers/educators trained with USG support                   45,000       46,162
  Number of textbooks and other teaching and learning materials          1,500,000   2,013,043
  provided with USG assistance
  Number of laws, policies, regulations, or guidelines developed or         1           1
  modified to improve equitable access to or the quality of education
  services
  Number of local organizations provided with technical assistance for      30          32
  strategic information activities
  Number of evaluations                                                     1           1
  Number of student achievement testing results                             1           1

On the basis of the indicator documentation and the guidance provided to the missions,
the audit team judged USAID/Honduras’ reporting on standard indicators to be generally
accurate. The mission provided adequate supporting documentation, usually developed
by contractors or by the Ministry of Education, to justify each reported number. In
addition, the mission had completed a data quality assessment of each data element
within the past 3 years, as required by ADS 203.

However, the data, combined with the narrative, gives an incomplete picture of the
status of the program. For example, the mission reported that all 1.38 million students in
Honduras benefited from U.S. Government support because the revised academic
standards were adopted nationwide; however, according to USAID/Honduras data, not
all the students received the same level of U.S. Government support. During the audit,
implementing partner officials and USAID/Honduras officials agreed that not all students


                                                                                                 5
in Honduras had received new textbooks and materials or had teachers who regularly
used the revised teaching materials. Therefore, while it is accurate that all students
benefited from some level of U.S. Government support, the different benefits from that
support should be noted.

Although the current list of standard indicators does not allow for such distinctions in the
quality of support received by various students, such problems and limitations can be
included in the program narrative or in a space below each indicator. However,
USAID/Honduras did not address these specific implementation challenges in its
FY 2009 performance narrative, because the mission was focused on accurately
reporting the recipients of U.S. Government support and did not clearly see the benefit of
a further explanation of the level of support reported. USAID/Honduras officials agreed
that some indicators would benefit from distinctions of the support in the PPR.

Without more complete reporting in the PPR, stakeholders may receive an incomplete
understanding regarding the level of support provided by the program and the difficulties
faced by the program as a result of limited distribution and use of education materials.
Without a written distinction or qualification of this information, USAID cannot plan effective
follow-up activities to address identified barriers to implementation and ensure the maximum
effectiveness of the program. To address this problem, this audit makes the following
recommendation:

   Recommendation 3: We recommend that USAID/Honduras adjust its future
   performance plan and reports to include written explanations or qualifications that
   more appropriately define the U.S. Government support that is reported.

Other Matter
USAID/Honduras is working to improve education in Honduras by developing quality
education materials and offering training in the proper use of the materials. The intent is to
improve achievement and primary school completion rates. To achieve these results,
USAID and other donors agree that a minimum of 200 school days a year is needed.

According to data provided by USAID and to discussions with partners and a former Ministry
of Education official, the number of school days has fallen below 200 because of frequent
school closures. For example, between 2000 and 2009, Honduras has not had more than
190 days of school in 1 year. For 5 of the 10 years mentioned, schools were open for fewer
than 150 days.

From discussions with USAID, partner officials, former teachers, and a former Ministry of
Education official, the audit team learned that the main cause of the school closures is
strikes by the teachers union. According to the former Ministry of Education official, the
teachers strike because they are not paid regularly.

Thus, although developing and distributing materials and providing training on their use can
improve education in Honduras, the overall impact of these activities will be limited if the
number of school days per year continues to be low. USAID through the implementing
partner AED is working to strengthen civil society’s role in education with a particular
emphasis on parental organizations, work that may bring increased pressure for a
permanent solution to the strikes and school closures.



                                                                                             6
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Honduras agreed to implement and has
developed specific plans to address recommendations 1, 2, and 3.

With regard to recommendation 1, the mission stated that it will work with the Ministry of
Education leadership and the education donor group to establish timelines for
distribution of USAID materials and to reach an understanding about which materials will
be funded by non-USAID sources and how those materials will be distributed to schools.
USAID/Honduras expects all action to be completed by February 28, 2011.

For recommendation 2, the mission said that it would strengthen the monitoring of
availability of materials and their use by building this requirement into agreements with
grantees. Current grantees will have these new requirements by September 30, 2010.

Regarding recommendation 3, USAID/Honduras indicated that in future performance
reports, the comments section will be used to explain more clearly how reporting data
was obtained. This will be completed with the next submission of the USAID/Honduras
Performance Plan and Report at the end of this calendar year.

Based on these proposed actions and the stated timelines, management decisions have
been reached on all recommendations. Mission comments in their entirety are
presented in appendix II.




                                                                                    7
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
determine whether (1) USAID/Honduras’ education activities are achieving their main
goals and (2) whether USAID/Honduras’ reporting on its education activities provided
stakeholders with complete and accurate information on the progress of the activities
and the results achieved. Audit fieldwork was conducted at USAID/Honduras and
implementing partners’ offices in Tegucigalpa from February 1 to February 19, 2010.

The audit covered the period February 1, 2007, through February 19, 2010, and focused
on the implementation of the Mejorando el Impacto al Desempeño Estudiantil de
Honduras (MIDEH) program by Academy for Educational Development (AED) and
American Institute for Research (AIR). In planning and performing this audit, we
assessed the mission’s controls related to its education activities. The management
controls identified included the mission’s performance management plan, program
progress reports, strategy documents, and the fiscal year (FY) 2009 self-assessment of
management controls as required by the Federal Managers’ Financial Integrity Act of
1982.

We reviewed the program results reported by both AED and AIR for FYs 2008 and 2009.
However, the partners did not report on certain indicators for 2009 because of the coup
d’état.

Methodology
To determine whether the MIDEH program is achieving its main goals, the audit team
met with and interviewed USAID/Honduras staff to gain an understanding of the
program’s history and status.        The audit team reviewed relevant agreements,
modifications, program descriptions, progress reports, and mission operating plans. The
audit reviewed the work accomplished as reported in the implementing partners’ reports
and compared actual accomplishments with the specific outputs as defined in the
agreements, performance monitoring plans, and monitoring and evaluation plans. This
comparison entailed examining supporting records, including documented deliverables
and the implementers’ progress reports, for evidence that the project had, in fact,
achieved its intended results. We also conducted interviews with both implementing
partners, five subcontractors, and a former Ministry of Education official.

To determine whether the mission reported accurate and complete information, we
interviewed mission and implementing partner personnel. We judgmentally selected 7 of
the 10 results that best represented the specific outputs related to the MIDEH program as




                                                                                    8
reported in the FY 2009 Performance Plan and Report 2 and reviewed the associated
documentation. We reviewed the guidance for such reporting as well. We also
reviewed implementing partner documentation, such as training lists. In assessing the
accuracy of reported results, we established a materiality threshold of 95 percent. If the
reported results could be verified, and if the difference between reported and
documented results was less than 5 percent, the reported results were judged to be
accurate.

In addition, we reviewed applicable policies, procedures, and management controls
related to the management for results, including Automated Directives System chapters
201 and 203. We also evaluated the mission’s compliance with relevant program
management controls and policies.




2
    The Performance Plan and Report reports to stakeholders on the mission’s results achieved
    during the fiscal year (October 1, 2008, to September 30, 2009, for FY2009) using operational
    plan indicators.


                                                                                               9
                                                                            APPENDIX II



MANAGEMENT COMMENTS

                                     MEMORANDUM
DATE:          June 4, 2010

TO:           Regional Inspector General/San Salvador Catherine Trujillo

FROM:         USAID/Honduras Mission Director William R. Brands /s/

SUBJECT:      Audit Report No. 1-522-10-00X-P, Audit of USAID/Honduras’
              Education Activities

Please find below USAID/Honduras’s position on the recommendations contained in the
subject audit report.

Recommendation No. 1:

We recommend that USAID/Honduras develop, in conjunction with the Government of
Honduras and other donors, a coordinating body to plan the annual distribution of
USAID-funded educational materials.

Mission Response:

USAID/Honduras accepts this recommendation. We acknowledge the value of having a
coordinating body that will develop a plan that includes distribution of USAID and, as
relevant, other Education for All (EFA) materials that the Government of Honduras
(GOH) plans to use in schools.

In 2008, USAID had obtained commitment from the Ministry of Education (MOE) to
leverage pooled EFA funds provided by other donors to the MOE to finance end-of-year
testing as a counterpart contribution. These funds served as direct counterpart to what
USAID-financed efforts were contributing in technical assistance. Documentation of the
agreements made between USAID grantee AIR and the MOE are found in Annex 1.
This demonstrates that we have a precedent for coordinating our efforts with other donor
and MOE support and for the MOE using its resources to compliment our activities. The
MOE provided 18,995,000 lempiras (approximately $1 million US dollars) to fund
printing, distribution and summative (end-of-grade) test administration in the 2008 school
year. The MOE also used $747,797 of EFA funds in 2007 and $566,795 in 2008 for the
printing and distribution of educational materials such as academic standards, pacing
guides, formative tests and teachers' manuals.

We had prioritized this type of leveraging of non-USAID financing of achievement testing
and provision of materials as something to be carried on in 2009 and future school
years. The political events of June 2009 resulted in a halt of all USAID assistance


                                                                                   10
benefitting the GOH and thus no testing was conducted in 2009. As of this writing in
May 2010, most EFA donors have not reactivated their assistance programs. It is
doubtful whether EFA pooled funding will be available to the MOE for the 2010 school
year – it seems more realistic to imagine that it will restart in 2011. USAID/Honduras
was only permitted to reestablish communications with GOH officials in April 2010 and
FY 2009 funding for education was only made available to us on May 21, 2010. This
background is meant to serve as a gauge for how we might time our response to this
recommendation.

This recommendation addresses the need to document logistics and timing of
distribution as well as funding sources, and this will improve our planning as we continue
to leverage other non-USAID funds to compliment our efforts. Our plan for addressing
this recommendation is to work with the MOE leadership and education donor group,
“MERECE”, to plan and establish timelines for distribution of USAID materials, as well as
to understand which materials will be funded by non-USAID sources and how those
materials will be distributed to schools. We will develop a matrix that describes how
USAID grantees and the MOE plan to distribute USAID-funded materials, including
targets for arrival in schools. We have influence over the materials that our funding
provides, since we will ask our grantees to monitor distribution and receipt of any such
materials. In addition, we will work with donors to include in the matrix other materials
they will provide, so that we are able to see the larger picture of what schools are
getting. Although this was not included in the RIG recommendation, we feel it will enrich
our information about the overall picture of materials distribution and availability in
schools. This matrix can serve as an annual tool that will be updated continuously as
changes occur in education planning.

We propose to discuss the idea of the “materials matrix” in the MERECE donor group
meeting scheduled for July 30, 2010. We propose to have a first draft of the matrix
developed jointly with the MOE showing USAID-funded materials distribution by
November 12, 2010. We need this time to prepare the matrix as we are only now
discussing which materials USAID will finance for 2011 due to the delays in receiving our
funding because of the Honduran political situation. We will share the matrix
electronically with the MERECE donor group prior to the scheduled meeting on
November 26, 2010 and seek commitment from the group to work with us on a
continuous basis to add any materials that they finance to the matrix and institute it as a
tool that we can all begin using for the 2011 school year, which will begin in February
2011. We expect all action to be completed by February 28, 2011; therefore, please
concur that a Management Decision has been reached.

Recommendation No. 2:

We recommend that USAID/Honduras develop performance management plans that
contain data on the implementation status of the education program, such as
availability of newly developed materials and use of materials in the classroom.

Mission Response:

We accept this recommendation. We currently have performance management plans
that contain detailed data on the implementation status of our education programs,
including teacher use of materials in the classroom. While we have done teacher usage
studies under our current programs, they were not scheduled to be done on a regularly


                                                                                        11
established schedule (such as annually). The auditors reviewed the studies that we had
done and recommended that there be a plan to ensure that these be done continuously
and in a regularly-scheduled manner, to include both availability of materials and usage.

Our plan for addressing this recommendation is to strengthen the monitoring of
availability of materials and their use by building this requirement into our agreements
with our grantees. We are currently amending our projects with AIR and AED to add FY
2009 and (as soon as they are received) FY 2010 funds. We will include language in
these and all other activities that produce or distribute materials that we finance in the
future requiring that there be verification of the arrival of materials and annual studies
that document whether and how the materials are being used by teachers and students
in classrooms.

Below is sample language we are drafting to insert in upcoming modifications to both
AIR and AED’s agreements:

 In February 2010, the USAID Regional Inspector General (RIG) performed an audit of
 USAID Honduras Education Activities (Audit Report No. 1-522-10-00X-P). The draft
 report dated May 13, 2010 was shared with AED and AIR. The audit team
 recommended that USAID strengthen its tracking of the distribution of USAID-financed
 materials and it monitoring of whether and how these materials are being used in the
 classroom.

 Therefore, as part of its proposal to address this Program Description, AED (same for
 AIR) must include in its proposal a plan to (1) ensure and document that all USAID-
 financed materials arrive in schools; and (2) monitor on a regular and on-going basis
 whether and how the teachers are using USAID-financed materials in the classrooms.
 AED (same for AIR) must clearly specify in its proposal how this monitoring will occur
 and with what frequency. In addition, AED’s (AIR’s) quarterly reports must contain a
 separate section addressing the results of this monitoring.

AIR will have this language inserted in its agreement prior to July 31, 2010 and AED
prior to September 30, 2010.

In addition to printed materials, AIR has posted MIDEH-project developed educational
materials for teachers on the MOE official website and set up two additional websites to
facilitate access for teachers with internet access: www.equip123.net/mideh and
http://av.dcnbhonduras.org. These sites post the materials and also allow teachers to
administer diagnostic and formative tests on-line or via a CD for instantaneous grading
and recording of the results. Our MIDEH project NGOs will be able to track both the use
of these materials and the results in schools where teachers and students have access
to computer labs.

Because the school year in Honduras begins in February, it will be some time before we
are able to demonstrate to RIG that we have instituted this tracking process and have
results to show. Materials will only be getting out to schools in early 2011 and usage
studies will have to occur some time after that to allow schools time to put them into use.
We feel we will be able to demonstrate compliance later in the 2011 Honduran school
year. We expect all action to be completed by September 30, 2011; therefore, please
concur that a Management Decision has been reached.



                                                                                        12
Recommendation No. 3:

We recommend that USAID/Honduras adjust its future performance plan and reports
to include written explanations or qualifications that more appropriately define the
United States Government support that is reported.

Mission Response:

We accept this recommendation. In our future performance reports we will use the
comments section to explain how we obtained our reporting data more clearly. This
finding arose from the observation that we had reported that we had provided all schools
with materials that we had purchased and there was conflicting information that not all of
the materials had gotten to their final destinations. Our actions in Recommendation 1
will help to ensure that the partnership between USAID, other donors, and the GOH
defines a clear plan to be able to track provision of materials. Our actions under
Recommendation 2 will strengthen our monitoring of the arrival of materials that USAID
finances in schools and increase our ability to give a more nuanced report on whether
the materials arrived in schools or not.

We expect all action to be completed with the next submission of our USAID/Honduras
Performance Plan Report at the end of this calendar year; therefore, please concur that
a Management Decision has been reached.




                                                                                       13
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
